Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





    REVIEW OF 340B PRICES





                    Daniel R. Levinson

                     Inspector General 


                       July 2006

                     OEI-05-02-00073

               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on
significant issues. Specifically, these evaluations focus on preventing fraud, waste, or
abuse and promoting economy, efficiency, and effectiveness in departmental programs.
To promote impact, the reports also present practical recommendations for improving
program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
E X E C U T I V E                   S U        M M A R Y
Δ    E X E C U T I V E                          S U M M A R Y     



                   OBJECTIVE
                   To determine whether entities participating in the 340B Drug Pricing
                   Program pay more than the statutorily defined 340B ceiling prices and,
                   if so, the potential reasons for price discrepancies.


                   BACKGROUND
                   Section 340B of the Public Health Service Act (PHS Act) established the
                   340B Drug Pricing Program (340B Program), which requires
                   pharmaceutical manufacturers to charge at or below statutorily defined
                   prices, known as the 340B ceiling prices, to qualified entities (340B
                   entities), including community health centers, public hospitals, and
                   various Federal grantees. Since 340B ceiling prices are based on
                   confidential pricing data, they are not disclosed to 340B entities, leaving
                   the entities unable to determine if the prices they pay are higher than
                   the 340B ceiling prices. The Health Resources and Services
                   Administration (HRSA) is responsible for monitoring compliance with
                   the 340B Program. Previous Office of Inspector General (OIG) studies
                   have determined that HRSA does not systematically ensure that
                   entities receive the prices to which they are entitled.

                   Our analysis compares the prices paid by 70 sampled 340B entities
                   during a randomly selected month—June 2005—to 340B ceiling prices
                   as calculated by HRSA and adjusted, where necessary, by OIG. These
                   70 340B entities made an estimated 229,796 total purchases during that
                   month.


                   FINDINGS
                   In June 2005, 14 percent of total purchases made by 340B entities
                   exceeded the 340B ceiling prices, resulting in total overpayments of
                   $3.9 million. Fourteen percent, or one in seven, of the total projected
                   340B purchases made in June 2005 exceeded the 340B ceiling prices,
                   resulting in a projected overpayment of $3.9 million for that month.
                   Sixty-eight of the seventy sampled entities overpaid on at least one
                   purchase. Overpayments made by these 68 entities were mostly
                   modest, but there were a few exceptionally large overpayments.
                   The largest overpayments in our sample resulted from inappropriate
                   handling of negative ceiling prices. The largest overpayments in our
                   sample were due to prices that did not follow HRSA’s “penny price”
                   policy in situations to which applying the statutory 340B ceiling price

 OEI-05-02-00073   REVIEW   OF   340B PRICES                                               i
E X E C U T I V E                   S U        M M A R Y


                   calculation yielded a negative number. In these cases, rather than
                   paying a penny per unit, as directed by HRSA, entities paid anywhere
                   from $1.65 to $1,931 per purchase over the ceiling price.
                   Patterns in our sample suggest that overpayments varied by the
                   volume of 340B purchases or sales associated with entities,
                   manufacturers, and wholesalers. In our sample, we found that most
                   340B entities, manufacturers, and wholesalers were involved in
                   transactions that resulted in overpayments. However, when grouped by
                   volume of purchases or sales, we found that low-volume entities,
                   manufacturers, and wholesalers were associated with higher rates of
                   overpayments.
                   Inaccuracies in HRSA’s ceiling prices limit its ability to monitor 340B
                   program compliance. Our analysis of the data HRSA used to
                   calculate 340B ceiling prices for June 2005 revealed that some data on
                   unit of measure and package size are inconsistent and, therefore,
                   resulted in incorrect 340B ceiling prices for certain drugs in HRSA’s
                   pricing file. If HRSA were to conduct audits using these data to
                   calculate ceiling prices, it would not be able to correctly identify or
                   quantify overpayments.


                   RECOMMENDATIONS
                   HRSA should improve its oversight of the 340B Program to ensure
                   that entities are charged at or below the 340B ceiling price. To
                   ensure that entities do not pay more than the 340B ceiling prices, we
                   continue to support our prior recommendations that HRSA improve its
                   oversight of the 340B program by more closely monitoring the prices
                   340B entities are charged, by officially comparing its 340B ceiling prices
                   to manufacturers’ calculations to detect discrepancies, and by
                   establishing penalties for PHS Act violations. HRSA could also work to
                   ensure uniform and timely transmission of 340B ceiling prices by taking
                   responsibility for disseminating a single verified list of its 340B ceiling
                   prices to wholesalers.
                   HRSA should provide technical assistance regarding 340B Program
                   implementation to all participating entities, manufacturers, and
                   wholesalers. HRSA should provide 340B entities, manufacturers, and
                   wholesalers with information about 340B Program requirements and
                   policies to improve compliance among all participants. HRSA may also
                   want to consider providing further assistance to specific entities,
                   manufacturers, and wholesalers with low-volume purchases and sales.

 OEI-05-02-00073   REVIEW   OF   340B PRICES                                              ii
E X E C U T I V E              S U      M M A R Y



                      Finally, as the marketplace continues to evolve, HRSA may want to
                      consider formulating outreach programs to orient new entities,
                      manufacturers, and wholesalers to the 340B Program.
                      HRSA should publish guidance regarding its penny price policy.
                      HRSA should publish guidance alerting manufacturers to its current
                      penny price policy, which instructs manufacturers to charge a penny
                      multiplied by the drug’s package size when faced with a negative 340B
                      ceiling price. Since the largest identified overpayments were due to
                      noncompliance with this policy, reinforcing the directive through
                      publicly available guidance could have a significant impact on reducing
                      overpayments with minimal effort.
                      To accurately calculate 340B ceiling prices, HRSA should obtain
                      data on consistent unit of measure and package size. HRSA’s ability
                      to correctly calculate 340B ceiling prices depends on the consistency of
                      the data related to unit of measure and package size. To ensure that
                      these data are uniform, we suggest that HRSA work with the Centers
                      for Medicare & Medicaid Services to identify incongruent data on unit of
                      measure. HRSA must also develop protocol to identify and correct
                      inaccurate package size data to ensure correct 340B ceiling prices.


                      AGENCY COMMENTS
                      HRSA concurred with each of our recommendations. The complete text
                      of HRSA’s comments can be found in Appendix D.

                      In response to our recommendation to improve oversight of the 340B
                      Program, HRSA stated that it has taken steps to more closely monitor
                      the prices paid by 340B entities. HRSA also agreed that, despite its
                      limited resources, it will manage and coordinate the technical
                      assistance efforts for the 340B Program, including special efforts to
                      target new and smaller-volume purchasers of drugs. HRSA stated that
                      it anticipates promulgating a penny price policy in conjunction with
                      formalizing the instructions for the calculation of 340B ceiling prices.
                      Finally, HRSA concurred with our final recommendation that it obtain
                      consistent unit of measure and package size data.


                      OFFICE OF INSPECTOR GENERAL RESPONSE
                      We believe that the steps HRSA outlined in response to our
                      recommendations will improve program oversight and the accuracy of
                      340B ceiling prices. We do, however, continue to encourage HRSA to


    OEI-05-02-00073   REVIEW   OF   340B PRICES                                            iii
E X E C U T I V E                  S U     M M A R Y


                     work toward a comprehensive comparison of its 340B ceiling prices to
                     all manufacturers’ data. We also maintain that HRSA should develop a
                     systematic process to detect and resolve unit of measure and package
                     size issues with its ceiling price data to ensure accurate 340B ceiling
                     prices.




   OEI-05-02-00073   REVIEW   OF   340B PRICES                                           iv
Δ   T A B L E          O F            C O N T E N T S                              




         EXECUTIVE SUMMARY .....................................i




         INTRODUCTION ........................................... 1




         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11 

                    Fourteen percent of purchases over 340B ceiling price . . . . . . . . . 11 


                    Largest overpayments explained . . . . . . . . . . . . . . . . . . . . . . . . . . 14 


                    Overpayments linked to volume of purchases and sales . . . . . . . . 15 


                    Problematic HRSA ceiling prices hinder oversight . . . . . . . . . . . . 17 





         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20 

                    Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24 


                    Office of Inspector General response . . . . . . . . . . . . . . . . . . . . . . . . . . 24 




         E N D N O T E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26 



         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30 

                    A: Eligible 340B Entities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30 


                    B: Detailed Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31 


                    C: Package Size Issues. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 40 


                    D: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 41 



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 45 

Δ   I N T R O D U C T I O N                    



                  OBJECTIVE
                  To determine whether entities participating in the 340B Drug Pricing
                  Program pay more than the statutorily defined 340B ceiling prices and,
                  if so, the potential reasons for price discrepancies.


                  BACKGROUND
                  The 340B Drug Pricing Program (340B Program) resulted from the
                  enactment of the Veterans Health Care Act of 1992 and is codified at
                  section 340B of the Public Health Service Act (PHS Act).1 The 340B
                  Program requires manufacturers to enter into a Pharmaceutical Pricing
                  Agreement (PPA) with the Secretary of the Department of Health and
                  Human Services.2 Under the 340B Program and in accordance with the
                  PPA, pharmaceutical manufacturers agree to charge at or below
                  statutorily defined prices, known as the 340B ceiling prices, for sales to
                  certain qualified entities.3 The 340B entities spent an estimated
                  $3.4 billion on covered outpatient drugs in calendar year 2003.4 The
                  Health Resources Services Administration (HRSA) oversees the 340B
                  Program, which includes monitoring the PPA.
                  The 340B Drug Pricing Program
                  Section 340B(a)(4) of the PHS Act lists the types of entities eligible to
                  participate in the 340B Program.5 Eligible 340B entities include
                  community health centers, Ryan White grantees, and disproportionate
                  share hospitals, among others (for a complete list, see Appendix A). As
                  of April 2006, more than 12,300 entities were enrolled in the 340B
                  Program.6
                  Participation in the 340B Program is voluntary; eligible entities must
                  notify HRSA of their intention to participate by completing appropriate
                  registration forms.7 Upon receipt and approval of the forms, HRSA
                  adds the entity to its Covered Entity database, which is available on
                  HRSA’s Web site.8 The 340B entity is responsible for alerting
                  wholesalers and manufacturers of its participation and referring them
                  to the database for confirmation so it can purchase covered outpatient
                  drugs at or below the ceiling prices.9 Manufacturers and wholesalers
                  access this database to verify an entity’s eligibility for the 340B
                  Program and use the contact information for shipping and billing
                  purposes. Once registration is completed and eligibility is approved, the
                  entity can purchase covered outpatient drugs at or below 340B ceiling
                  prices beginning the next calendar quarter.10

OEI-05-02-00073   REVIEW   OF   340B PRICES                                              1
I N T R O D          U C T       I O N


                        Pursuant to section 340B(a)(8) of the PHS Act,11 HRSA established a
                        prime vendor program to facilitate the delivery of covered drugs.
                        HRSA’s 340B Prime Vendor Program, managed by Healthcare
                        Purchasing Partners International, serves its participants in three
                        primary ways: negotiating discounts below 340B ceiling prices,
                        establishing distribution solutions and networks that improve access to
                        affordable medications, and providing other services designed to
                        simplify participation in the 340B Program. Participation in the 340B
                        Prime Vendor Program is voluntary and cost-free to entities. To date,
                        nearly 2,400 340B entities participate in the program.12
                        Manufacturers are responsible for calculating 340B ceiling prices and
                        ensuring that 340B entities are charged at or below 340B ceiling prices
                        for their drug purchases, regardless of whether the 340B entity
                        purchases drugs directly from the manufacturer or through a
                        wholesaler. Section 340B(a)(10) of the PHS Act13 provides that nothing
                        shall prohibit a manufacturer from charging less than the ceiling price
                        for a drug. If a manufacturer fails to abide by the 340B Program
                        requirements, it may be required to reimburse the 340B entity for
                        discounts withheld and can be terminated from the 340B Program.
                        Further, a manufacturer that lacks a PPA will fail to meet the
                        requirements of the Medicaid drug rebate program and its products will
                        not be eligible for Federal Medicaid reimbursements.14
                        If a manufacturer’s drugs are available to entities through wholesalers,
                        the 340B discount must be made available through that avenue.15 In
                        other words, the wholesalers, acting on behalf of the manufacturers,
                        must pass the 340B ceiling prices through to 340B entities. Currently,
                        three large wholesalers, categorized as primary wholesalers, carry
                        nearly all types of pharmaceutical products and handle approximately
                        90 percent of pharmaceutical product distribution in the United
                        States.16 The remaining 10 percent of drugs are delivered by secondary
                        wholesalers, which serve smaller areas than primary wholesalers and
                        may deliver a more limited line of pharmaceuticals. Both primary and
                        secondary wholesalers must pass along 340B ceiling prices to the 340B
                        entities, but are allowed to charge an administrative and/or distribution
                        fee based on negotiations with the individual entities.
                        340B Ceiling Price Formula
                        The 340B ceiling prices are calculated according to a formula that is
                        based on information generated in connection with the Medicaid drug
                        rebate program. In that program, manufacturers are required to report


   OEI-05-02-00073      REVIEW   OF   340B PRICES                                             2
I N T R O D      U C T    I O N


                         to the Centers for Medicare & Medicaid Services (CMS) each quarter
                         the average manufacturer price (AMP) for each of their drugs.17 CMS
                         uses AMP and other data to calculate a unit rebate amount (URA) that
                         serves as a basis for the rebate amounts paid by manufacturers.18 The
                         340B ceiling price is based on these components and is essentially equal
                         to the AMP reduced by the URA.19
                         The AMP and URA used in the 340B ceiling price formula are based on
                         the smallest dispensable unit of each drug, such as a tablet, capsule, or
                         milliliter. Therefore, taken literally, the ceiling price applies to each
                         unit of the drug that the entity purchases—for example, $1 per pill.

                         To implement the 340B ceiling price requirement, the per-unit ceiling
                         price must be multiplied by the drug package size in which entities
                         purchase drugs—for example, a bottle of 100 tablets versus individual
                         tablets. The 340B ceiling prices per package are calculated as follows:


                                                 [(AMP) - (URA)] * drug’s package size



                         Occasionally, a drug’s URA is greater than its AMP, resulting in a
                         negative ceiling price.20 Therefore, to convert negative prices to
                         practical prices, HRSA developed the penny price policy, which advises
                         manufacturers to charge entities one penny per unit in these
                         situations.21
                         HRSA and Manufacturers’ Use of 340B Ceiling Prices
                         Pharmaceutical manufacturers and HRSA calculate 340B ceiling prices
                         every quarter. Pharmaceutical manufacturers use their calculated
                         340B ceiling prices in sales to 340B entities, but they are not required to
                         report these prices to HRSA. Therefore, for oversight purposes, HRSA
                         must calculate 340B ceiling prices as well.

                         To calculate 340B ceiling prices, HRSA receives the AMP and URA from
                         CMS each quarter under the terms of an Intra-Agency Agreement. As
                         explained above, CMS receives the manufacturers’ pricing data for the
                         Medicaid drug rebate program and calculates a URA. Under a separate
                         contract, HRSA obtains the package size information needed to
                         calculate 340B ceiling prices from First DataBank (FDB), a contracted
                         provider of drug product information. HRSA assumed responsibility for
                         calculating the 340B ceiling price in October 2005. Previous to this,
                         CMS had calculated the 340B ceiling price and transmitted it to HRSA


      OEI-05-02-00073    REVIEW   OF   340B PRICES                                              3
 I N T R O D            U C T      I O N


                          each quarter. Chart 1 illustrates the calculation and use of 340B ceiling
                          prices by HRSA and manufacturers.


CHART 1:        340B PRICING DATA AND PURCHASE FLOW


HRSA’s 340B ceiling prices                                                 Manufacturer’s calculation and
                                                                           dissemination of 340B ceiling
                                                                           prices



                  Manufacturers                                Pharmaceutical
                  send FDB                                     Manufacturers
                  package size
                  info                                                                  Manufacturers use AMP and
                                           Manufacturers
                                           send AMP and                                 URA data to calculate 340B
                                           Best Price to                                ceiling prices and transmit to
                                           CMS                                          wholesalers
    FDB
                                                                             Manufacturers
                             CMS                                             can also sell
                                                                             drugs directly
                                                                             to entities
                          CMS sends                                                                    Wholesalers
                          AMP and URA
   FDB sends HRSA         to HRSA
   manufacturer                                       HRSA works
   package size data                                                                          Wholesalers sell drugs
                                                      with                                    at 340B ceiling price +
                                                      manufacturers                           fee to entities
                                                      to resolve
                                                      price issues

                                                           HRSA calculates 340B
                                                           ceiling prices; uses them
                           HRSA                            to verify prices on behalf
                                                                                                  340B
                                                           of entities and to oversee             Entities
                                                           program. Does not share
                                                           ceiling prices with
                                                           entities.


                          Confidentiality of 340B Ceiling Prices
                          The Medicaid drug rebate program statute, at Section 1927(b)(3)(D) of
                          the Social Security Act, specifies that AMP and certain other pricing
                          information “…shall not be disclosed by” the Department “in a form
                          which discloses the identity of a specific manufacturer or wholesaler,
                          [or] the prices charged for drugs” except as necessary to carry out the
                          provisions of the Act or for certain other limited purposes. Due to this

      OEI-05-02-00073     REVIEW   OF   340B PRICES                                                                4
I N T R O D     U C T   I O N



                        provision, 340B entities have not had access to AMPs or to the
                        calculated 340B ceiling prices, rendering them unable to check whether
                        they paid more than the 340B ceiling prices. HRSA reports that it has,
                        when requested, compared a sample of prices paid by entities to its
                        340B ceiling prices for a “market basket” of products, typically around
                        10 products, to check for discrepancies. Yet, since HRSA cannot disclose
                        any information related to the ceiling prices, its response to the entity is
                        limited to a discussion of how the entity’s prices compared to the 340B
                        ceiling price in the aggregate.

                        The Deficit Reduction Act of 2005 (DRA) requires certain disclosures of
                        AMPs. Section 6001(b) of the DRA requires CMS to make AMPs
                        available to State Medicaid programs monthly and to the public
                        quarterly through its Web site beginning July 1, 2006. On May 22,
                        2006, however, CMS stated that it would not publicly release the
                        current AMP figures, but instead would focus on developing a revised
                        definition of AMP and AMP data based on the new definition for public
                        disclosure.22 It is unclear when this revised definition and data will be
                        released or whether it will be useful for 340B entities in evaluating the
                        appropriateness of the prices they are charged.
                        Related OIG Work
                        In June 2004, OIG issued “Deficiencies in the 340B Drug Pricing
                        Program’s Database” (OEI-05-02-00071), which reviewed the quality
                        and timeliness of HRSA’s database containing information on 340B
                        participating entity enrollment. We found the enrollment database to
                        be a poor source of contact and participation information for 340B
                        entities and we recommended that HRSA develop a strategic plan for
                        improved management of the 340B database. In response, HRSA has
                        made significant improvements to its Covered Entity database,
                        including the deletion of several nonparticipants and the recertification
                        of more than 7,500 participating entities.

                        In October 2005, OIG issued “Deficiencies in Oversight of the 340B
                        Drug Pricing Program” (OEI-05-05-00072), which assessed HRSA’s
                        oversight capacities. We found that due to systemic problems with the
                        accuracy and reliability of HRSA’s record of 340B ceiling prices, HRSA
                        is unable to appropriately oversee the 340B Program. We also found
                        that HRSA lacks the oversight mechanisms and authority to ensure
                        that 340B entities pay at or below 340B ceiling prices.

                        Based on these findings, we recommended that HRSA establish detailed
                        standards for its calculation of 340B ceiling prices and institute

      OEI-05-02-00073   REVIEW   OF   340B PRICES                                               5
I N T R O D         U C T      I O N

                      oversight mechanisms to validate its 340B ceiling prices and the prices
                      charged to entities. We also recommended that CMS and HRSA work
                      together to ensure the availability of accurate and timely pricing data
                      for 340B ceiling prices. Finally, we recommended that HRSA seek
                      legislative authority to establish penalties for PHS Act violations.

                      HRSA agreed with most of our recommendations and has already
                      addressed many of the issues we raised. For example, HRSA is
                      comparing its 340B ceiling prices to a subset of manufacturers’
                      voluntarily submitted ceiling prices each quarter.


                      METHODOLOGY
                      To determine whether entities participating in the 340B Program pay
                      more than the statutorily defined 340B ceiling prices, we compared the
                      prices that a sample of 340B entities paid over a randomly selected
                      month to the 340B ceiling price as calculated by HRSA and adjusted,
                      where necessary, by OIG.

                      We randomly selected one month—June 2005—from the first 2 quarters
                      of 2005, as these were the most recent data available. According to
                      HRSA, pricing information is often delayed at the beginning of a new
                      quarter as manufacturers update 340B prices; therefore, we excluded
                      the first month of each quarter from selection. As such, our final
                      conclusions apply only to the selected month, June 2005.

                      Below we provide an overview of our sampling, data collection, and
                      analysis. For more details, see Appendix B.
                      Entity Sample Selection
                      To select our sample of entities, we accessed HRSA’s Covered Entity
                      database, available on its Web site. Although our 2003 report cited
                      deficiencies in this database, it is the only official source from which to
                      sample 340B entities. In addition, based on our recommendations,
                      HRSA made some improvements to the database, as mentioned above.
                      Finally, we did some additional verification of the data prior to selecting
                      our sample. At the time we selected the sample, April 2005, the
                      database included 11,947 entities.

                      Based on interviews with HRSA and several entity advocacy groups, we
                      excluded certain entity types from our population.23 We excluded 340B
                      entities that regularly purchase drugs using other discount
                      mechanisms, such as the discounts available via the Federal Supply
                      Schedule or Title X. We also excluded 340B entities that purchase a

  OEI-05-02-00073     REVIEW   OF   340B PRICES                                               6
I N T R O D               U C T       I O N

                                very low volume of drugs. These exclusions eliminated a total of 7,707
                                entities, giving us a population of 4,240 entities.

                                Because the 340B Program requires each location that receives 340B
                                Program drug shipments to be registered individually in HRSA’s
                                Covered Entity database, the database includes multiple entity listings
                                associated with the same organization. A 340B entity is often a grantee
                                that has several satellite sites. The primary site purchases, pays for,
                                and distributes drugs to be used in the satellite sites. We identified and
                                linked related entities because we wanted our sampling units to be
                                entities that purchase drugs either for themselves or on behalf of
                                satellite sites. From the universe of 4,240 entities, our efforts to link
                                related entities produced our final population of 1,708 primary sites,
                                which we refer to as “purchasing agents”.24 For the purpose of this
                                study, we refer to the purchasing agent and the satellite sites as a
                                single 340B entity.

                                We next selected a stratified random sample of 98 entities. We
                                stratified based on characteristics we believed might be related to price
                                discrepancies: entity type and purchasing method. The resulting
                                sample included five strata, described in Table 1.

Table 1. Stratification of 340B Entities

             Strata        Entity Types Within Stratum                  Reason for Stratum        Population   Sample
                                                                                                        Size       Size

Direct Purchasers:        Disproportionate Share Hospitals     High pharmacy volume and                  484         30
Stratum 1                                                      sophisticated purchasing
                                                               process
Direct Purchasers:        Consolidated Health Centers and      Diversity of products but at a            620         30
Stratum 2                 Federally Qualified Health Centers   lower volume than hospitals
Direct Purchasers:        Hemophilia Treatment Centers         Specific, expensive products,              43          8
Stratum 3                                                      including anticlotting factor

Direct Purchasers:        Ryan White Title I, Ryan White       Slightly more diverse range of            137         10
Stratum 4                 Title II (ADAP Direct Purchasers),   products than hemophilia
                          and Ryan White Title III             treatment centers purchased for
                                                               a specific population

Contracted Pharmacy       All                                  Complicated distribution                  424         20
Arrangement                                                    arrangements
Purchasers: Stratum 5

                                                                                          Total        1,708        98




        OEI-05-02-00073         REVIEW   OF   340B PRICES                                                      7
I N T R O D       U C T           I O N

                  Prior to data collection, we eliminated four entities in our sample that
                  were located in Mississippi and Louisiana, because their operations may
                  have been disrupted by Hurricane Katrina. This elimination reduced
                  our sample of entities to 94. We contacted each of the 94 entities to
                  verify contact information and to confirm participation, and found that
                  only 73 of the 94 entities were actually participating in the 340B
                  Program. In other words, 21 of the entities in our sample (which
                  purchased on behalf of 32 individual entities) do not participate in 340B
                  or were not participating in June 2005, even though they were included
                  in HRSA’s database of participants. The exclusion of these 21 entities
                  reduced our number of eligible respondents from 94 to 73.
                  Data Collection
                  Entity invoice data. We requested that the 73 sampled 340B entities
                  supply copies of invoices for purchases made over the sampled month
                  and respond to an online survey regarding their purchasing process to
                  provide context to the invoices. We informed sampled entities that we
                  would need to capture information for our analysis based on the
                  National Drug Code (NDC) from the Food and Drug Administration.
                  The NDC is a three-segment universal product identifier that specifies
                  the drug’s manufacturer, product name, and package size. We received
                  complete and usable submissions from 70 purchasing agents, which
                  represented the purchases made on behalf of 165 individual sites listed
                  in HRSA’s database. Detailed information on response rate is included
                  in Appendix B.
                  340B ceiling prices. To obtain the 340B ceiling prices used in June 2005,
                  we requested and received the complete ceiling price file from HRSA for
                  the relevant quarter.25
                  During our quality assurance review of HRSA’s 340B ceiling prices, we
                  discovered disparities between CMS and pharmaceutical industry
                  standards for describing a drug’s unit of measure and package size,
                  which led to incorrect HRSA 340B ceiling prices for certain drugs. We
                  reviewed 372 NDCs and adjusted the 340B ceiling prices on 164 NDCs.
                  Therefore, for the purpose of our analysis, 340B ceiling prices reflect
                  HRSA’s submitted ceiling prices, with OIG adjustments for 164 NDCs.
                  Further details on our process for detecting and resolving issues with
                  HRSA’s ceiling prices can be found in Appendix B.




OEI-05-02-00073   REVIEW   OF   340B PRICES                                             8
I N T R O D           U C T   I O N



                         Analysis
                         To conduct our analysis, we first calculated a unit difference amount by
                         subtracting the 340B ceiling prices per unit from the unit prices paid by
                         the entity, without accounting for quantity. In making this comparison,
                         we considered the invoice price to be the same as the 340B ceiling price
                         as long as it was within $0.01 of the ceiling price. This margin of error
                         allowed us to disregard differences solely due to rounding. Per CMS
                         guidelines, the AMP and URA calculations, and therefore the 340B
                         ceiling prices as well, may be calculated to the fifth decimal place.26
                         However, 340B entity prices reflect actual transactions, which are
                         reported only to the second decimal place on the invoices.

                         In making our comparisons, we did not account for the addition or
                         reduction of any wholesaler’s fees or discounts since they were
                         considered separate from the cost of the drug. Although it is reasonable
                         to assume that the addition of a middleman would increase the entity’s
                         costs, of the 66 entities (out of 72 survey respondents) that provided us
                         with information on wholesaler’s fees, only 5 reported paying an
                         administrative fee to the wholesaler which was considered separate
                         from the cost of the drugs. More commonly, entities (23) reported
                         receiving a volume-based discount from their wholesalers ranging from
                         1 to 3 percent below the ceiling price.

                         For the purpose of this study, we classified each of these unit
                         comparisons as a single purchase. The term “purchase” reflects the
                         single purchase of each package of product whether the entity
                         purchased multiple quantities of the product at the same time or just a
                         single package. For example, whether the entity purchased 10 packages
                         of Drug A at 1 time or 1 package 10 separate times, both cases counted
                         as 10 purchases. To compute the total financial impact of differences,
                         we multiplied the unit price difference per purchase by the total
                         quantity the entity reported ordering.

                         Our analysis only included line items for which the quantity shipped
                         and the unit prices were greater than zero. It also excluded NDCs for
                         which HRSA did not calculate a unit price because the AMP and/or
                         URA was missing.27
                         We included 100 percent of purchases from 63 entities’ invoices, as they
                         were submitted electronically or were paper submissions that could
                         reasonably be entered manually. Seven of the entities’ paper
                         submissions could not reasonably be manually entered, so we entered a
                         simple random sample of their purchases. The number of purchases

    OEI-05-02-00073      REVIEW   OF   340B PRICES                                             9
I N T R O D         U C T      I O N


                     entered into our database was 202,251. When the purchases reported
                     by these 7 entities are appropriately weighted, our final conclusions
                     relate to 229,796 purchases and 5,331 unique NDCs.
                     Pattern Analysis
                     To assess potential reasons for price discrepancies, we examined our
                     sample to look for characteristics associated with overpayments. We
                     considered whether overpayments occurred more often for transactions
                     involving specific entities, manufacturers, or wholesalers. We also
                     looked at whether specific drugs were associated more often with
                     overpayments. We looked at volume of sales or purchases in light of the
                     common business practice of manufacturers and wholesalers offering
                     volume-based discounts to purchasers. To do this, we grouped entities,
                     manufacturers, and wholesalers in clusters by volume, maintaining
                     appropriate proportions given the range of each group’s purchases or
                     sales.
                     Projections
                     Due to issues with assigning appropriate strata,28 as well as identifying
                     340B entities, we were prevented from projecting our findings by
                     stratum. Our estimates of total 340B entity overpayments and total
                     340B entity spending are projected from our overall sample to the
                     population of 1,708 purchasing agents that purchase on behalf of 4,240
                     entities listed in HRSA’s database.

                     However, most of the analysis presented in this report relates only to
                     our sample and is not projected to the population of 340B entities. We
                     analyzed these data by purchase, by entity, and by NDC. We also
                     analyzed the data by manufacturers and wholesalers who sold drugs to
                     the 340B entities in our sample. The results from this analysis relate
                     only to our sample and cannot be projected to the universe of
                     manufacturers or wholesalers. Where appropriate, we tested
                     differences we found in our sample for statistical significance.
                     Standards
                     This study was conducted in accordance with the “Quality Standards for
                     Inspections” issued by the President’s Council on Integrity and
                     Efficiency and the Executive Council on Integrity and Efficiency.




  OEI-05-02-00073    REVIEW   OF   340B PRICES                                            10
Δ   F I N D I N G S 




In June 2005, 14 percent of total purchases             Fourteen percent, or one in seven,
made by 340B entities exceeded the ceiling              of the total projected 340B
   price, resulting in total overpayments of            purchases in June 2005 exceeded
                                                        340B ceiling prices. Eighty-six
                                  $3.9 million
                                                        percent of the purchases met the
                                                        statutory requirement to be either
                  at or below 340B ceiling prices. The 14-percent error rate corresponds
                  to a total projected overpayment of $3.9 million (+/- $1.9 million at the
                  95-percent confidence level) for that month. We estimate that our
                  population of 1,708 purchasing agents, representing 4,240 sites, spent
                  an estimated $445 million on drugs during June 2005. Thus, the
                  overpayments of $3.9 million represent slightly less than 1 percent of
                  total spending.

                  Because 340B ceiling prices represent the maximum amount an entity
                  should pay for drugs, any amounts over the ceiling prices are
                  noncompliant with the requirements of the 340B Program. Congress
                  intended the 340B Program to help “stretch Federal resources as far as
                  possible, to reach more eligible patients and provide more
                  comprehensive services.”29 The $3.9 million overpaid for this 1 month
                  might instead have been used to lower the cost of acquiring additional
                  drugs to serve indigent patients at low or no cost.

                  Overpayments by 340B entities may also result in financial loss to State
                  Medicaid agencies. Because 340B entities may also serve patients
                  covered by the Medicaid program, they can elect to charge the State at
                  340B prices for drugs dispensed to these beneficiaries if the State does
                  not also collect Medicaid drug program rebates for the same drugs.30 In
                  fact, 37 of the sampled entities reported that they pass on the 340B
                  price to the States instead of charging at the States’ usual Medicaid
                  rate.31 Thus, when an entity pays in excess of the ceiling price, it may
                  be unknowingly passing on an inflated price to the State.
                  Sixty-eight of the seventy sampled entities overpaid on at least one
                  purchase
                  Almost all 340B entities in our sample paid more than 340B ceiling
                  prices at least once. Overall, 68 sampled entities paid more than the
                  ceiling prices for between 2 and 100 percent of their total purchases. In
                  terms of dollars, the total monthly overpayment range by entity ranged
                  from $.51 to $36,730 over the ceiling prices. On average, 35 percent of



OEI-05-02-00073   REVIEW   OF   340B PRICES                                             11
F   I N D I N G                                                                    S



                                                                                            sampled entities’ purchases in June 2005 exceeded the ceiling prices,
                                                                                            with a median of 12 percent.

                                                                                            On the high end, however, 17 of the sampled entities paid above the
                                                                                            340B ceiling prices for 75 percent or more of their total purchases. One
                                                                                            of these entities paid more than the ceiling prices on 100 percent of its
                                                                                            purchases. The percentage of overpayments by entity is displayed in
                                                                                            Chart 2.

      CHART 2 

      Percentage of Purchases Overpaid for the 68 

      Sampled Entities With Overpayments 



                                                                       100%
        Percentage of Purchases in Excess of the 340B Ceiling Prices




                                                                       90%


                                                                       80%


                                                                       70%


                                                                       60%


                                                                       50%

                                                                                                                        Average Overpayment Rate for the 68 Entities in the Sample With
                                                                       40%                                              Overpayments (35%)


                                                                       30%


                                                                       20%
                                                                                                                                      Overall Overpayment Rate for the Sampled Entities (14%)

                                                                       10% Median Overpayment Rate for the 68 Sampled Entities With
                                                                              Overpayments (12%)

                                                                        0%
                                                                                                                                  Entities
                                                                                                                        Source: Office of Inspector General analysis of sampled entities’ invoices, 2006.

                                                                                            Overpayments by the sampled entities were mostly modest, with a few
                                                                                            exceptionally large overpayments
                                                                                            Of the 32,201 purchases with associated overpayments, the extent to
                                                                                            which they exceeded the 340B ceiling prices ranged broadly from less
                                                                                            than 1 percent to 450,000 percent. However, the median overpayment
                                                                                            was a modest 5 percent over the ceiling price. In fact, 72 percent of the
                                                                                            overpayments in our sample exceeded the ceiling price by less than
                                                                                            25 percent.

        OEI-05-02-00073                                                                     REVIEW   OF   340B PRICES                                                                                12
F   I N D I N G        S


                           In contrast, there were some large overpayments. Eighteen percent of
                           the overpayments in our sample exceeded the 340B ceiling prices by
                           more than 50 percent. For nearly 11 percent of overpayments, the
                           purchase price exceeded the ceiling price by more than 100 percent.
                           Finally, 3 percent of the entity overpayments exceeded the ceiling prices
                           by more than 1,000 percent.

                           Overall, the dollar difference between the prices sampled entities paid
                           per purchase and the respective ceiling prices ranged from $0.01 to
                           almost $2,000. The median overpayment was $0.38. On the other
                           hand, per-purchase overpayments in excess of $500 affected 27
                           purchases. Overpayments by sampled entities’ purchases are displayed
                           in Chart 3.


               CHART 3                                            $2,000

      Dollars Paid Over
       the 340B Ceiling
                                                                                                                                                        $1,931
                            Dollars Over the 340B Ceiling Price




      Prices for 229,796
               Sampled
                                                                  $1,500

             Purchases


                                                                  $1,000




                                                                   $500



                                                                            $0.01                           Median = $0.38


                                                                     $0

                                                                                       Sampled Entity Purchases Above the 340B Ceiling Price

                                                                                            Source: Office of Inspector General analysis of sampled entities’ invoices, 2006.




                           In our sample, the majority of purchases below the ceiling prices entailed
                           modest discounts
                           Like the pattern of overpayments, entities’ purchase prices that fell
                           below the ceiling prices ranged widely. For the majority, the differences
                           between purchase price and ceiling price were modest. In our sample,
                           entities paid between less than 1 percent to almost 100 percent below
                           340B ceiling prices. However, the median discount off the ceiling prices
                           was just 3 percent. In the aggregate, 75 percent of the payments below
                           the ceiling price represented less than a 10-percent discount. On the


         OEI-05-02-00073   REVIEW                                   OF   340B PRICES                                                                                13
F   I N D I N G         S


                            other hand, approximately 6 percent of the below-ceiling payments were
                            more than 50 percent lower than the ceiling prices.

                            Overall, the dollar difference between the prices sampled entities paid
                            and the respective ceiling prices ranged from $.01 below the ceiling
                            prices per purchase to nearly $2,920 below per purchase. The median
                            dollar difference between the entity price and the ceiling price was
                            $1.54.


           The largest overpayments in our sample                  The largest overpayments within
            resulted from inappropriate handling of                our sample were due to purchases
                             negative ceiling prices               for which the price did not reflect
                                                                   HRSA’s “penny price” policy. In
                                                                   the 340B ceiling price calculation,
                            occasionally the URA is greater than the AMP, resulting in a negative
                            340B ceiling price. This occurs when a manufacturer’s reported AMP
                            has increased faster than the rate of inflation, requiring it to pay an
                            additional rebate amount. When the 340B calculation results in a
                            negative price, HRSA has directed manufacturers to charge a penny per
                            unit.

                            Of the 49 drugs in our sample for which the URA is greater than the
                            AMP, the ceiling prices were not calculated according to HRSA’s penny
                            price policy for over half (27). In these cases, 340B entities paid
                            anywhere from $1.65 to $1,931 per purchase over the 340B ceiling
                            prices. These overpayments ranged from 1,790 to 450,000 percent over
                            the 340B ceiling prices. It appears that instead of a price based on the
                            penny price policy, entities were charged either at the retail price or at
                            an approximation of the previous quarter’s ceiling prices.
                            All purchase prices in excess of the ceiling prices by more than 100,000
                            percent were the result of noncompliance with the penny price policy.
                            The discrepancies account for 7 percent of the sample’s total
                            overpayment of approximately $259,000. If purchases of the 27 drugs
                            not in compliance were corrected to follow HRSA’s penny price policy,
                            the savings would equal $18,553 for the month for the sampled entities.

                            Although HRSA’s penny price policy is not stated in statute or
                            regulation, HRSA says that it has been verbally communicated to
                            manufacturers and has been a routine practice since the program
                            started. For slightly less than half of the drugs, penny prices were



      OEI-05-02-00073       REVIEW   OF   340B PRICES                                              14
 F   I N D I N G       S


                  correctly charged, indicating that some manufacturers and wholesalers
                  are aware of and follow this policy.



       Patterns in our sample suggest that                In our sample, we found that most
overpayments varied by the volume of 340B                 entities, manufacturers, and
                                                          wholesalers were associated with
purchases or sales associated with entities,
                                                          transactions resulting in
          manufacturers, and wholesalers
                                                          overpayments. We also found that
                  an overpayment by one entity for a particular drug did not mean that
                  all entities overpaid for that drug. In fact, a drug sold to one entity at a
                  price above the 340B ceiling price is often sold below the ceiling price to
                  a different entity. Over 40 percent of the unique drugs in our sample
                  that were sold at least once at a price above the 340B ceiling price were
                  also sold at prices equal to or below the ceiling price.

                  Upon further examination of the sample, we identified patterns that
                  may offer insights into some overpayments. When entities,
                  manufacturers, and wholesalers were grouped by volume of purchases
                  or sales, we saw consistent patterns associated with overpayments. In
                  particular, the sampled data suggest that overpayments occurred more
                  often in transactions involving entities, manufacturers, and wholesalers
                  with lower volume of 340B sales or purchases. Although we expected
                  higher-volume purchasers to negotiate larger volume-based discounts
                  below the ceiling price and lower-volume entities to pay prices closer to
                  the ceiling price, we did not anticipate that lower-volume entities would
                  have more overpayments. It is possible that the low-volume entities,
                  manufacturers, and wholesalers with limited involvement with the
                  340B Program may be less familiar with its requirements and policies,
                  resulting in noncompliance.
                  Sampled entities with fewer 340B purchases paid more than the ceiling price
                  for a higher percentage of purchases
                  In our sample, entities with fewer purchases for the month had a
                  significantly higher percentage of purchases above 340B ceiling prices
                  than entities that made a greater number of purchases. When grouped
                  by purchase volume, distinct differences exist among the three
                  categories of purchasers, as seen in Table 2 on the following page.
                  These differences are statistically significant within our sample.




OEI-05-02-00073   REVIEW   OF   340B PRICES                                              15
F   I N D I N G          S     



                              Table 2. Percentage of Purchases Over the
                              340B Ceiling Price by Volume of Entity
                              Purchases
                                   Number of Purchases                                  Percentage Over

                                   Less than 500 (28 entities)                                           43%

                                   500 to 1,500 (17 entities)                                            27%

                                   Greater than 1,500 (23 entities)                                      12%

                             Source: Office of Inspector General analysis of sampled entities’ invoices, 2006.



                             This pattern results in overpayments having a more pronounced
                             financial impact on entities with lower 340B drug expenditures. For the
                             26 entities that purchased more than $100,000 of drugs during June
                             2005, overpayments accounted for less than 5 percent of their total
                             spending. Conversely, for the sampled entities that spent under
                             $100,000 on 340B purchases for the month, 13 had overpayments that
                             accounted for more than 5 percent of total expenditures made during
                             June 2005. The 3 entities with the highest percentages of overpayments
                             (15, 17, and 35 percent) spent less than $11,000 on 340B drugs for the
                             month.
                             In our sample, the manufacturers with the lowest volume of sales had the
                             greatest percentage of sales that resulted in overpayments
                             Similar to the entity pattern, when we grouped manufacturers by
                             volume of total 340B sales in our sample, we found that a relationship
                             between total sales and percentage of sales with overpayments became
                             clear.32 These differences are illustrated in Table 3 below and are
                             statistically significant within our sample.

                              Table 3. Percentage of Sales Resulting in
                              Overpayments by Volume of Manufacturer Sales
                                   Number of Sales                                        Percentage Over

                                   Less than 100 (112 manufacturers)                                     46%

                                   100 to 1,000 (51 manufacturers)                                       28%

                                   Greater than 1,000 (49 manufacturers)                                 13%

                              Source: Office of Inspector General analysis of sampled entities’ invoices, 2006.




       OEI-05-02-00073       REVIEW    OF   340B PRICES                                                           16
F   I N D I N G           S



                              In our sample, overpayments occurred more frequently for products sold
                              through secondary wholesalers than through primary wholesalers
                              A statistically significant relationship between lower sales volume and
                              more frequent overpayments also holds true for the wholesalers in our
                              sample. When we examined the differences between the rates of
                              overpayments associated with the two groups of wholesalers, primary
                              and secondary, we found that 14 percent of the products sold through
                              primary wholesalers were sold at prices above the ceiling prices,
                              whereas 68 percent of the products sold by secondary wholesalers were
                              sold at prices above the ceiling prices. The three primary wholesalers in
                              our sample accounted for significantly greater volume of sales than the
                              13 secondary wholesalers. In fact, the primary wholesalers represented
                              178 times the total sales volume of secondary wholesalers in our
                              sample.


     Inaccuracies in HRSA’s ceiling prices limit its               Our analysis of the data HRSA used
          ability to detect price discrepancies and                to calculate 340B ceiling prices for
                         oversee the 340B program                  June 2005 revealed that data
                                                                   regarding unit of measure and
                              package size are inconsistent and, therefore, result in incorrect HRSA
                              340B ceiling prices for certain drugs. If HRSA were to conduct audits
                              using these data to calculate ceiling prices, it would not be able to
                              correctly identify overpayments.
                              Inconsistent drug pricing data produce incorrect HRSA 340B ceiling prices
                              Some of HRSA’s 340B ceiling prices for June 2005 were incorrect due to
                              problems related to unit of measure and package size data, which are
                              necessary to calculate 340B ceiling prices from AMPs. Section I(a) of
                              the Medicaid drug rebate program agreement entered into by drug
                              manufacturers defines the AMP to be a manufacturer’s average unit
                              sales price to wholesalers for drugs distributed to the retail pharmacy
                              class of trade (e.g., per pill, milliliter, or tube). However, manufacturers
                              set prices for the sale and distribution of drugs in various package sizes
                              (e.g., per bottle, vial, or kit). Pharmacies purchase drugs by the package
                              and 340B ceiling prices are set at this package level. As previously
                              explained, in the 340B ceiling price formula, the AMP (discounted by
                              the URA) must be multiplied by package size in order to correspond
                              with market practices.

                              To calculate 340B ceiling prices, HRSA obtains AMP and URA data
                              from CMS and contracts with FDB to receive industry package size

        OEI-05-02-00073       REVIEW   OF   340B PRICES                                             17
F   I N D I N G       S

                  information. FDB package size information conforms to standards
                  established by the National Council for Prescription Drug Programs
                  (NCPDP)33 to facilitate use of uniform billing units in all transactions.34
                  For the most part, CMS and FDB use the same standards; however,
                  when the standards vary, calculating 340B ceiling prices using data
                  adhering to two different standards yields inaccurate results.

                  To accurately calculate a 340B ceiling price from the AMP, it is
                  necessary to consistently apply the unit of measure across all pricing
                  data. We identified instances in which the definition of a unit of
                  measure differed between CMS and FDB. For instance, manufacturers
                  report the AMP to CMS for a particular drug–Drug A–based on a
                  milliliter unit of measure; however, FDB lists the unit of measure for
                  Drug A as “each.”35 Drug A is sold to pharmacies as a powder for
                  infusion in a vial with a unit of measure of “each.” Medicaid rebates are
                  based on how Drug A was dispensed, as a reconstituted liquid dose
                  (milliliter). Although both descriptions of the unit of measure (each and
                  milliliter) are correct for their respective purposes, the combination of
                  the data results in incorrect ceiling prices. In this situation, the HRSA
                  computed 340B ceiling price was 10 times too low.

                  Beyond issues with defining a unit of measure, OIG also uncovered
                  instances in which the information on units per package size reported
                  by manufacturers to CMS differed from the package size they reported
                  to FDB. These differences led to incorrect 340B ceiling prices because
                  the AMP was multiplied by the inappropriate package size. For further
                  details on these issues, see Appendix C.
                  HRSA’s ability to monitor the appropriateness of prices that 340B entities
                  pay is significantly limited by flawed ceiling price data
                  Based on the problems outlined above, OIG had to adjust the ceiling
                  prices for 164 unique NDCs, which affected 4,332 entity purchases. In
                  some cases, the comparison of 340B entity prices to the revised ceiling
                  prices changed the original determination of whether a price was above,
                  at, or below the 340B ceiling price. In other cases, it affected the size of
                  the difference between ceiling prices and entity prices.

                  We found that 1,673 of the sampled entity purchases went from an
                  overpayment when compared to HRSA’s 340B prices to at or below the
                  ceiling prices when compared to the OIG-adjusted prices. Using HRSA’s
                  340B ceiling prices to project to the population would result in an
                  estimate that entities overpaid $12.6 million in June 2005––nearly
                  $9 million more than the estimate based on OIG-adjusted prices.

OEI-05-02-00073   REVIEW   OF   340B PRICES                                               18
    F   I N D I N G             S

                  We also found that certain purchases went from at or below the ceiling
                  prices when compared to HRSA’s calculated ceiling prices to an
                  overpayment based on the OIG-adjusted prices. Using HRSA’s 340B
                  prices would have missed 380 purchases that exceeded the ceiling prices
                  for the month reviewed.

                  Finally, we identified purchases for which comparing 340B entity prices
                  to HRSA’s calculated 340B prices would have accurately identified the
                  direction of price discrepancies, but would not have accurately identified
                  the extent of the discrepancies. For these 2,279 purchases, comparing
                  entity prices to OIG-adjusted prices (as opposed to HRSA’s calculated
                  prices) did not change whether a price discrepancy was above or below
                  the ceiling price. Rather, it changed the extent of the discrepancy.

                  If HRSA had used its ceiling prices to assess the appropriateness of
                  prices paid by 340B entities, it would have erroneously identified
                  overpayments as transactions that were actually at or below the ceiling
                  price, which could have led to inappropriate enforcement actions. It is
                  also possible that use of HRSA’s prices might result in attempts to
                  recoup incorrect amounts where overpayments are identified but the
                  amount is incorrect. In addition, use of inaccurate data could also
                  interfere with the ability to detect actual overpayments.




OEI-05-02-00073   REVIEW   OF   340B PRICES                                            19
Δ    R E C O M M E N D A T I O N S                         





                  Despite the requirements of the 340B Program, 14 percent of purchases
                  made by 340B entities exceeded the 340B ceiling price, resulting in
                  $3.9 million in projected overpayments for the month reviewed.

                  Previous OIG work found that HRSA is unable to appropriately oversee
                  the 340B Program. 36 In particular, we found that HRSA lacked the
                  mechanisms and authority to ensure that 340B entities pay at or below
                  340B ceiling prices. This report quantifies the potential impact that a
                  lack of oversight has on the 340B Program. Furthermore, we found, as
                  in our previous report, that HRSA’s calculated ceiling prices can be
                  inaccurate, which causes further concern related to HRSA’s ability to
                  monitor the 340B Program.

                  This review also explores potential reasons for the price discrepancies
                  we uncovered in our sample of 70 purchasing agents, which made
                  229,796 purchases on behalf of 165 eligible sites in June 2005. We
                  discovered that noncompliance with HRSA’s penny price policy accounts
                  for some of the largest overpayments in our sample. We also found that
                  manufacturers, wholesalers, and entities in our sample that sell or
                  purchase drugs using the 340B Program less frequently tend to be
                  associated with more overpayments, suggesting that at least some
                  overpayments stem from lack of experience with the complex 340B
                  system.

                  The following recommendations reiterate and build upon our previous
                  recommendations to HRSA to improve its oversight of the 340B
                  Program to ensure that entities pay at or below the mandated ceiling
                  price.
                  HRSA Should Improve Its Oversight of the 340B Program to Ensure That
                  Entities Are Charged at or Below the 340B Ceiling Price
                  To ensure that entities are charged at or below the 340B ceiling price,
                  we continue to support our prior recommendation that HRSA increase
                  its oversight of the 340B Program. Increased monitoring could include
                  HRSA’s comparing its 340B ceiling prices to the manufacturers’ ceiling
                  prices each quarter to detect and resolve discrepancies. HRSA could
                  also conduct spot-checks of entity invoices to ensure that entities are
                  charged at or below 340B ceiling prices. Finally, as previously proposed,
                  we believe it is important that HRSA have sufficient penalty authority

OEI-05-02-00073   REVIEW   OF   340B PRICES                                           20
 R   E C O        M M E N D A T                 I O N   S


                    in case its current informal approach toward dispute resolution is
                    insufficient.

                    HRSA has made steps toward improving 340B Program oversight based
                    on these prior OIG recommendations. In December 2005, HRSA
                    requested manufacturers to voluntarily submit their 340B ceiling prices
                    to HRSA for comparative purposes and received responses from more
                    than 130 manufacturers, from which it has run comparisons on a subset
                    of 50. HRSA is currently working on an automated program to compare
                    the 340B ceiling prices to prices within the 340B market. Finally,
                    HRSA reported that it included a request for funds in its 2007
                    appropriation to support efforts to resolve pricing discrepancies when
                    they are detected. We support these efforts and encourage HRSA to
                    formalize the process of comparing all of the more than 700
                    participating manufacturers’ ceiling prices to its 340B ceiling prices
                    under a prescribed protocol to ensure a thorough and consistent
                    verification process.

                    In addition to these efforts to ensure the accuracy of the 340B ceiling
                    prices, HRSA could assist the uniform and timely transmission of 340B
                    ceiling prices by taking responsibility for disseminating a single verified
                    list of 340B ceiling prices to wholesalers. To do this, HRSA could
                    receive ceiling prices from all manufacturers for comparison to its 340B
                    ceiling prices, flag differences, follow up on the discrepancies, and create
                    a single verified list of 340B ceiling prices. This action would
                    streamline the process significantly as wholesalers would receive one
                    340B pricing file from HRSA instead of the current process whereby
                    wholesalers exchange data with more than 700 participating
                    manufacturers each quarter. To implement this process, HRSA might
                    consider its Prime Vendor as a possible conduit of this data, since the
                    Prime Vendor has links to the wholesalers.

                    Finally, we recommend that HRSA monitor the way in which the AMP
                    disclosure provisions required in Section 6001(b) of the DRA are
                    implemented. The revised definition of the AMP, when made available,
                    could potentially be useful to 340B entities in approximating whether
                    they are paying more than 340B ceiling prices.
                    HRSA Should Provide Technical Assistance Regarding 340B Program
                    Requirements to All Participating Entities, Manufacturers and Wholesalers
                    HRSA should increase its efforts to provide entities, manufacturers, and
                    wholesalers with information about 340B Program requirements and
                    policies with the goal of improved compliance among all participants.

OEI-05-02-00073     REVIEW   OF   340B PRICES                                              21
     R   E C O    M M E N D A T               I O N   S

                  Though we are unable to project, the patterns detected in our sample
                  suggest a potential link between infrequent interactions with the 340B
                  program and overpayments. We found that low-volume purchasers
                  were disproportionately affected by overpayments. HRSA may want to
                  consider providing further assistance to specific entities, manufacturers,
                  and wholesalers with low-volume purchases and sales.

                  HRSA might increase the 340B Program’s visibility to entities through
                  further promotion of its Pharmacy Services Support Center (PSSC), a
                  pharmacy technical assistance resource established in 2002 to provide
                  information, education, and policy analysis to help eligible entities
                  optimize the value of the 340B Program.37 One valuable tool offered
                  through PSSC that merits increased attention is the HRSA technical
                  initiative called “PharmTA.” This program provides 340B entities with
                  an opportunity to request and receive 340B and pharmacy technical
                  assistance via a team of HRSA-trained consultants by phone, by e-mail,
                  or in person.

                  For manufacturers and wholesalers, HRSA could further its education
                  efforts geared toward increasing industry compliance with the 340B
                  Program. HRSA has participated in several industry conferences
                  designed to specifically educate manufacturers and wholesalers, and we
                  believe continuing to actively pursue opportunities for training will
                  assist the success of the 340B Program. HRSA could also, like CMS,
                  publish letters on its Web site addressed to all manufacturers and
                  wholesalers, for example, to direct 340B pricing or distribution practices
                  or to clarify policies.

                  HRSA may also want to form a work group with members representing
                  the entities, manufacturers, and wholesalers to identify and resolve
                  ongoing issues related to the 340B Program. HRSA has enjoyed success
                  with this informal approach in addressing issues with its Covered
                  Entity database and interaction with Medicaid.

                  Finally, as the marketplace continues to evolve, HRSA may want to
                  consider creating and conducting outreach programs to orient new
                  entities, manufacturers, and wholesalers to the 340B Program.
                  HRSA Should Publish Guidance Regarding Its Penny Price Policy
                  HRSA should publish guidance that will serve as an explicit
                  confirmation of its currently unofficial penny price policy. A formal,
                  publicly available statement of this policy would help ensure that
                  manufacturers consistently charge a penny (multiplied by the drug’s
                  package size) when a negative ceiling price is calculated. Since the

OEI-05-02-00073   REVIEW   OF   340B PRICES                                            22
R   E C O    M M E N D A T               I O N       S   





                         inappropriate handling of negative ceiling prices results in significant
                         overpayments, accounting for 7 percent of the total overpayments in our
                         sample, reinforcing the penny price policy with official guidance could
                         have a significant impact on reducing the amount entities overpaid with
                         minimum effort.

                         HRSA has already committed to publish detailed instructions for the
                         calculation of the 340B ceiling price on its Web site, and we encourage it
                         to include guidance related to the penny price in these policies.38 If,
                         however, HRSA finds that this guidance is insufficient to ensure
                         compliance, the agency may want to pursue promulgating regulations
                         about the policy. HRSA may want to also create an exceptions process
                         to the policy to address instances in which adherence to this policy
                         results in a higher price than the previous quarter’s ceiling prices.
                         To Accurately Calculate 340B Ceiling Prices, HRSA Should Obtain
                         Consistent Data on Unit of Measure and Package Size
                         HRSA’s ability to monitor the 340B Program depends on having
                         accurate 340B ceiling prices. Though HRSA’s current package size data
                         from FDB yield a correct ceiling price for most drugs, the prices are
                         incorrect for certain products for which CMS and NCPDP have
                         divergent standards for defining a unit or package. Until these unit of
                         measure and package size issues are resolved, HRSA will continue to
                         incorrectly calculate the 340B ceiling price for certain drugs.

                         HRSA has recently recognized the potential for discrepancies stemming
                         from different unit of measure or package size conventions, and reports
                         that it is working toward a more systematic process to detect and
                         resolve these differences. We recommend as part of these efforts that
                         HRSA develop protocol that compares CMS and FDB unit of measure
                         definitions to detect discrepancies. This comparison requires a fairly
                         simple data match. We also suggest that HRSA work directly with CMS
                         to identify NDCs for which the unit of measure is captured differently
                         by CMS and FDB. The agencies should also exchange information on
                         instances in which CMS has exceptions to its unit of measure
                         standards, as this information could isolate where standards diverge.
                         HRSA and CMS have already engaged in discussions regarding
                         accurate and timely drug pricing data, so they could add unit of
                         measure issues to the agencies’ collaborative efforts.

                         To address the package size issues, we offer two suggestions to improve
                         the integrity of HRSA’s 340B ceiling price calculations. First, because
                         most unit of measure differences also require adjustments to the

       OEI-05-02-00073   REVIEW   OF   340B PRICES                                            23
   R   E C O      M M E N D A T                I O N   S


                   package size data, HRSA could systematically review the package size
                   data associated with unit of measure discrepancies. Second, HRSA
                   could request that manufacturers submit the package size information
                   they use directly to the Agency to be used as its official package size
                   source or as a source of comparison. This information would not
                   necessarily be the same package size information reported to either
                   FDB or CMS, but would assist in calculating correct 340B ceiling prices.


                   AGENCY COMMENTS
                   HRSA concurred with each of our recommendations. The complete text
                   of HRSA’s comments can be found in Appendix D.

                   In response to our recommendation to improve oversight of the 340B
                   Program, HRSA stated that it has taken steps to more closely monitor
                   the prices paid by 340B entities. Specifically, HRSA has requested that
                   manufacturers voluntarily submit their prices for comparison to the
                   agency’s ceiling prices. HRSA stated that it already receives ceiling
                   price information on a voluntary basis from more than 50
                   manufacturers and expects that many more manufacturers will
                   voluntarily submit data. HRSA also stated that it will continue to work
                   toward dissemination of verified ceiling prices to wholesalers. Further,
                   HRSA intends to explore ways to provide ceiling prices to wholesalers
                   and entities, while protecting the confidentiality of the pricing data.
                   Additionally, HRSA stated that it will explore the possibility of seeking
                   the authority and resources needed to impose fines and civil penalties
                   for violations of the PHS Act.

                   In response to our other recommendations, HRSA agreed that, despite
                   its limited resources, it will manage and coordinate the technical
                   assistance efforts for the 340B Program, including special efforts to
                   target new and smaller-volume purchasers of 340B drugs. HRSA also
                   stated that it anticipates promulgating a penny price policy in
                   conjunction with formalizing the instructions for the calculation of 340B
                   ceiling prices, which OIG recommended in a previous report. Finally,
                   HRSA concurred with our recommendation that it should obtain
                   consistent unit of measure and package size data.


                   OFFICE OF INSPECTOR GENERAL RESPONSE
                   We believe that the steps HRSA outlined in response to our
                   recommendations will improve its program oversight and the accuracy
                   of 340B ceiling prices. We do, however, continue to encourage HRSA to

OEI-05-02-00073    REVIEW   OF   340B PRICES                                            24
     R    E C O   M M E N D A T               I O N   S


                  work toward a comprehensive comparison of its 340B ceiling prices to
                  all manufacturers’ data. We also maintain that HRSA should develop a
                  systematic process to detect and resolve unit of measure and package
                  size issues with its ceiling price data to ensure accurate 340B ceiling
                  prices.




OEI-05-02-00073   REVIEW   OF   340B PRICES                                          25
Δ    E N D N O T E S                          





                    1   42 U.S.C. § 256b.

                    2   42 U.S.C. § 256b(a)(1).

                    3   Ibid.

                    4This estimate of total purchases is the most recent available from the
                  Office of Pharmacy Affairs, Health Resources and Services
                  Administration.

                    5   42 U.S.C. § 256b(a)(4).

                    6The total number of entities listed on HRSA’s Covered Entity
                  Database is 12,334. Available online at
                  http://opanet.hrsa.gov/opa/Login/MainMenu.aspx. Accessed on May 24,
                  2006.

                    7 The 340B Program registration form may be found on HRSA’s Web
                  site at www.hrsa.gov/opa/introduction.htm.

                    8http://opanet.hrsa.gov/opa/Login/MainMenu.aspx; select “Covered
                  Entity” to search for participating entities.

                    9 The statement from HRSA requiring entities to notify manufacturers
                  of their participation is available online at
                  http://www.hrsa.gov/opa/introduction.htm. Accessed on May 31, 2006.

                    10“Introduction to 340B Drug Pricing Program,” available online at
                  http://www.hrsa.gov/opa/introduction.htm. Accessed on July 11, 2006.

                    11   42 U.S.C. § 256b(a)(8).

                    12Prime Vendor Program’s Power Point presentation of 340B
                  Participation numbers. Available online at
                  http://www.340bpvp.com/faq/default.asp. Accessed on May 22, 2006.

                    13   42 U.S.C. § 256b(a)(10).




OEI-05-02-00073   REVIEW   OF   340B PRICES                                               26
                    14   Sections 1927(a)(1) and (a)(5)(A) of the Social Security Act.

                    15Final Notice Regarding Section 602 of the Veterans Health Care Act
                  of 1992 Entity Guidelines, Section (10) Dealing Direct or Through a
                  Wholesaler, 59 FR 25113, May 13, 1994.

                     Forbes Magazine, “Healthcare: Cardinal Health,” available at
                    16

                  www.forbes.com/global/2002/0415/072.html, and Eban, Katherine,
                  “Dangerous Doses,” May 2006.

                    17   Section 1927(b)(3) of the Social Security Act.

                    18Section 1927(c) of the Social Security Act outlines the manner in
                    which rebate amounts are determined.

                    19   Sections 340B(a)(1-2) of the PHS Act; 42 U.S.C. § § 256b(a)(1-2).

                    20Under the Medicaid drug rebate program, CMS indexes quarterly
                  AMPs to the rate of inflation. Section 1927(c)(2)(A) provides that if the
                  AMP increases at a rate faster than inflation, the manufacturer pays an
                  additional rebate amount which is reflected in an increased URA. Thus,
                  Section 1927(c)(2)(A) could increase the rebate amount manufacturers
                  must pay to the States, but could also result in negative 340B prices.

                    21Though this policy is not officially stated in regulation or guidance,
                  HRSA staff have discussed this expectation in several interviews with
                  OIG and publicly stated the expectation at several 340B conferences and
                  meeting. HRSA staff says that this policy has been expressed since the
                  start of the program.

                    22 Remarks of CMS Administrator Dr. Mark B. McClellan as delivered
                  to the National Community Pharmacists Association, May 22, 2006.

                    23We interviewed several member organizations of the 340B Coalition,
                  which represents the thousands of safety net providers and programs
                  participating in the Public Health Service's 340B Program. Members
                  interviewed included the Public Hospital Pharmacy Coalition,
                  Hemophilia Alliance, Inc., National Association of Community Health
                  Centers, and National Alliance of State and Territorial AIDS Directors.




OEI-05-02-00073   REVIEW   OF   340B PRICES                                                  27
                    24Technically, our efforts to link related entities resulted in a final
                  population of 1,727 entity networks, but we eliminated 20 entities and
                  added 1 previously dropped entity, bringing our reported total to 1,708.
                  We eliminated 20 hospitals due to ongoing OIG investigations and
                  included 1 Ryan White Title IV grantee (previously excluded from the
                  sample because of its very low volume of products purchased) after
                  discovering it had a contract pharmacy arrangement.

                     We requested the 340B ceiling prices for second quarter of 2005, which
                    25

                  HRSA calculated using AMPs and URAs from the fourth quarter of 2004.

                     Centers for Medicare & Medicaid Services, Medicaid Drug Rebate
                    26

                  Operational Guide, p. H2.

                    27If a manufacturer does not submit AMP to CMS, CMS is unable to
                  calculate a URA and, therefore, cannot supply HRSA with either the
                  AMP or URA needed to compute 340B ceiling prices.

                    28During our review, we discovered that HRSA’s database had the
                  incorrect entity type listed for six of the sampled entities––e.g, the entity
                  was categorized as a Ryan White grantee, but reported that it was
                  actually a Consolidated Health Center. Since our stratification was
                  based on entity type, these inaccuracies meant we had placed them in
                  incorrect strata.

                    29   H.R. Rpt. 102-384, 102nd Cong., 2nd session, pt. 2 at 12 (1992).

                    30Entity Guidelines, 58 FR 68922,68923, December 29, 1993. Entities
                  may instead opt to bill the State for Medicaid beneficiaries at the State’s
                  usual acquisition cost plus a fee. Entities using this option must
                  purchase a separate inventory at a non-340B contract price for Medicaid
                  patients.

                    31Of the 73 eligible entities in our sample, 72 responded to the
                  Web-based survey, of which 69 responded to this question on passing on
                  the 340B discount or billing States at the Medicaid rate.

                    32As a quality control check, we also analyzed the relationship between
                  the volume of sales associated with the unique labeler codes of each of the
                  306 sampled manufacturers and overpayments. We found that, when




OEI-05-02-00073   REVIEW   OF   340B PRICES                                                   28
                  categorized in the same three groups, the relationship between low-
                  volume manufacturers and higher overpayments was still evident and
                  statistically significant. In this analysis, the high-volume manufacturers
                  had a 12 percent overpayment rate; medium-volume, 22 percent; and
                  low-volume, 39 percent.

                      The National Council for Prescription Drug Programs (NCPDP) is a
                       33

                  not-for-profit standards development organization consisting of more
                  than 1,300 members representing virtually every sector of the pharmacy
                  services industry.

                       34   NCPDP Billing Unit Standard Implementation Guide Version 2.0.

                      According to the NCPDP Billing Unit Standard, “each” is one of the
                       35

                  three appropriate billing units other than milliliter or gram. The term
                  “each” may refer to a tablet, a capsule, a suppository, or a transdermal
                  patch. NCPDP Billing Unit Standard Implementation Guide Version 2.0.

                   “Deficiencies in Oversight of the 340B Drug Pricing Program,”
                  36

                  OEI-05-02-00072, October 2005.

                      The Pharmacy Services Support Center operates under a contract
                       37

                  between the American Pharmacists Association and HRSA.

                     Agency comments section, “Deficiencies in the Oversight of the 340B
                       38

                  Drug Pricing Program,” OEI-05-02-00072, October 2005.




OEI-05-02-00073   REVIEW     OF   340B PRICES                                               29
Δ      A P P E N D I X ~ A                     




          Types of Entities Eligible to Participate in the 340B Program:

          Black lung clinics

          Community health centers

          Disproportionate share hospitals

          Family planning clinics

          Federally qualified health center lookalikes

          Federally qualified health centers funded by the Office of Tribal Programs

          Healthcare for the homeless centers

          Hemophilia treatment centers

          Migrant health clinics

          Native Hawaiian Health Care Program

          Public housing clinics

          Ryan White Title I

          Ryan White Title II

          Ryan White Title II (AIDS Drug Assistance Program direct purchase)

          Ryan White Title II (AIDS Drug Assistance Program rebate option)

          Ryan White Title III

          Ryan White Title IV

          School-based programs

          Sexually transmitted disease clinics

          Special Projects of National Significance

          Tuberculosis

          Urban Indian Clinics



OEI-05-02-00073    REVIEW   OF   340B PRICES                                           30
Δ       A P P E N D I X ~ B                               




                           DETAILED METHODOLOGY
                           Entity Sample Selection
                           Based on interviews with the Health Resources and Services
                           Administration (HRSA) and other 340B interest groups, we excluded
                           certain entity types from our population. We excluded entities that
                           regularly purchase drugs using other discount mechanisms, such as the
                           reductions available via the Federal Supply Schedule or Title X. We
                           also excluded entities that purchase a very low volume of drugs. These
                           exclusions eliminated a total of 7,707 entities, giving us a population of
                           4,240 entities. Table 1 lists the excluded entities.


Table 1. Entities Excluded From Sample
                                                    Number of Entity
Entity Type                                        Listings Excluded                                 Reason for Exclusion
Federally Qualified Health Centers Funded                       102            Indian Health Service grantees may receive
by the Office of Tribal Programs                                           pharmaceutical discounts under multiple Federal
                                                                                                   programs, not just 340B
Urban Indian Organizations                                       17           Special relationship with Indian Health Service
Ryan White Title II Rebate Option                                47      Do not purchase drugs using the 340B ceiling price

Family Planning Clinics                                       5,118 Routinely receive nominal prices or samples and rarely
                                                                                                           order products
Sexually Transmitted Disease Clinics                          1,344                 Purchase drugs using Title X discounts
Tuberculosis Clinics                                          1,024    Majority of products that sampled entities reported on
                                                                        invoices during previous 340B work were vaccines,
                                                                             which are not covered under the 340B Program


Black Lung Clinics                                               10                 Very low volume of products purchased
Native Hawaiian Clinics                                           5

Ryan White Title IV                                               7

Special Projects of National Significance                         8



                           Purchasing Agents
                           At the time we selected the sample, HRSA’s database did not include a
                           link demonstrating the relationship between the purchasing agent and
                           its affiliates. Therefore, we used the HRSA-assigned unique 340B
                           identification number to group entities. This identification number
                           typically consists of three segments: first, an alpha-prefix that indicates
                           the entity type; second, numbers assigned at HRSA’s discretion, which
                           sometimes consists of the site’s Zip code; and third, if a site is related to
                           another site, a terminal alpha-suffix. An example of the unique
                           identification number would be DSH1234A. Using this number, we

 OEI-05-02-00073           REVIEW   OF   340B PRICES                                                                      31
A   P   P E N D              I X ~    B


                                   grouped entities together if their HRSA identification number differed
                                   only by their alpha-suffix or alpha-prefix, and counted each grouping as
                                   one purchasing agent. In attempting, for example, to link DHS1234A to
                                   other entities, we would have grouped it with DSH1234B and
                                   DSH1234C. In addition, entities were grouped together if they had an
                                   identical address and contact information. Each group of entities was
                                   counted as one purchasing agent. Entities with no listed affiliates were
                                   also counted as one purchasing agent. To further confirm linkages
                                   among just the Consolidated Health Centers, we relied on the data
                                   listed on HRSA’s Bureau of Primary Health Care Web site, which
                                   contains information on these grantees’ service delivery sites. For each
                                   center, the Web site lists the main site and its supported sites. We also
                                   used the information on this Web site to update the centers’ contact
                                   information. Our efforts to link related entities resulted in a population
                                   of 1,727 purchasing agents, referred to in the report as 340B entities for
                                   simplicity. Table 2 summarizes our efforts to link related entities and
                                   identify the purchasing agent for our sample.

        Table 2. Identifying 340B Purchasing Agents

                                                           Number Listed in Covered   Overall Number of Purchasing
                               Entity Type
                                                                    Entity Database        Agents Identified by OIG

        Disproportionate Share Hospital                                       1,153                            498

        Consolidated Health Center                                            2,500                            841

        Federally Qualified Health Center                                       162                             84

        Hemophilia Treatment Centers                                             74                             73

        Ryan White Title I                                                       89                             54

        Ryan White Title II                                                      79                             65

        Ryan White Title III                                                    183                             92

                                             Total                            4,240                          1,727



                                   Sample Selection
                                   Prior to selecting our sample, we eliminated 20 disproportionate share
                                   hospitals from Stratum 1 due to ongoing OIG investigations. We also
                                   included a Ryan While Title IV network in Stratum 5 after discovering
                                   that it differed from the rest of its category in that it had a contract
                                   pharmacy arrangement. These adjustments resulted in a final

          OEI-05-02-00073          REVIEW   OF   340B PRICES                                                    32
A   P   P E N D        I X ~       B



                                        population of 1,708 purchasing agents from which the sample was
                                        selected and projections were made.

                                        We selected a stratified random sample of 98 purchasing agents based
                                        on entity type and purchasing method. The resulting sample included
                                        five strata representing disproportionate share hospitals, Consolidated
                                        Health Centers, hemophilia treatment centers, Ryan White grantees,
                                        and any entity type with contract pharmacy arrangements.

                                        We stratified our sample based on characteristics we believed might
                                        influence price discrepancies. Based on potential administrative or
                                        operational differences, we stratified purchasing agents as either direct
                                        purchasers or entities with contract pharmacy arrangements.
                                        Additionally, with regard to the direct purchasing agents, we further
                                        stratified our sample, selecting a stratified random sample from four
                                        strata of entity types determined by characteristics of 340B
                                        participating entities, namely pharmacy volume, sophistication of
                                        purchasing, diversity of products, and proportional impact on the 340B
                                        program. Table 3 displays the stratification results including the
                                        population size and sample size by stratum.

        Table 3. Stratification of 340B Entities

           Stratum                 Entity Types Within Stratum                  Reason for Stratum        Population   Sample
                                                                                                                Size        Size

        Direct Purchasers:        Disproportionate Share Hospitals     High pharmacy volume and                  484          30
        Stratum 1                                                      sophisticated purchasing
                                                                       process
        Direct Purchasers:        Consolidated Health Centers and      Diversity of products but at a            620          30
        Stratum 2                 Federally Qualified Health Centers   lower volume than hospitals
        Direct Purchasers:        Hemophilia Treatment Centers         Specific, expensive products,              43           8
        Stratum 3                                                      including anticlotting factor

        Direct Purchasers:        Ryan White Title I, Ryan White       Slightly more diverse range of            137          10
        Stratum 4                 Title II (ADAP Direct Purchasers),   products than hemophilia
                                  and Ryan White Title III             treatment centers purchased for
                                                                       a specific population

        Contracted Pharmacy       All                                  Complicated distribution                  424          20
        Arrangement                                                    arrangements
        Purchasers: Stratum 5

                                                                                                  Total        1,708         98


                                        Sample Verification
                                        After we made our sample selection, Hurricane Katrina hit the Gulf
                                        Coast. As a result, we dropped four purchasing agents located in


                OEI-05-02-00073         REVIEW   OF   340B PRICES                                                      33
A   P   P E N D      I X ~      B


                                 Louisiana or Mississippi to avoid imposing a burden on health care
                                 providers in the region. Calls to each of the remaining 94 purchasing
                                 agents to confirm participation status and address information revealed
                                 that 21 of the purchasing agents did not participate the 340B Program
                                 and, therefore, were not eligible for this study. In total, of the 98
                                 purchasing agents originally sampled, only 73 were included in our
                                 study. Table 4 provides a breakdown of the responses of the ineligible
                                 entities.

                             Table 4. Description of Ineligibles
                             Reason Not Eligible                                                       Number

                             Does not participate in 340B at all or does not purchase drugs                10

                             Enrolled in 340B, but has not yet used the program                             4

                             Enrolled in 340B, but did not purchase drugs in June 2005                      3

                             Dropped from study because of Hurricane Katrina (entities in hurricane-
                                                                                                            4
                             affected areas of Louisiana and Mississippi)

                             Does not qualify to participate in 340B                                        1

                             Center does not exist or we were unable to locate it                           2
                             Other                                                                          1
                                                                                               Total       25


                                 Data Collection
                                 To obtain information on the prices from the 73 purchasing agents in
                                 our sample, we requested invoices for purchases made under 340B
                                 contracts during the sampled month. We requested that the purchasing
                                 agent only submit invoices relating to purchases made under their 340B
                                 contract and exclude any inpatient or group purchasing organization
                                 prices negotiated under a separate contract. We also requested that the
                                 purchasing agent provide additional information we deemed necessary
                                 to ascertain that the invoice data supplied were correct, including
                                 contract and purchase order numbers.

                                 Of the 73 eligible purchasing agents, only 1 did not respond to our
                                 request for 340B invoices for June 2005. An additional two purchasing
                                 agents responded, but we were unable to use their invoice submissions.
                                 For one purchasing agent, paper drug invoices did not include NDC
                                 codes. For another purchasing agent, information about prescriptions
                                 and not invoice purchases was supplied. Therefore, our final number of
                                 sampled respondents was 70. These 70 purchasing agents purchase on

           OEI-05-02-00073       REVIEW   OF   340B PRICES                                                      34
A   P   P E N D      I X ~        B




                                behalf of a total of 165 entities. Table 5 provides a breakdown of sample
                                responses by stratum.

            Table 5. Response Rate by Stratum
            Stratum Description                                     Sample Size   Eligible for Study   Responses

            Direct Purchasers: Disproportionate Share                       30                   24           24
            Hospitals
            Direct Purchasers: Consolidated Health Center                   30                   19           18
            Programs and Federally Qualified Health Centers
            Direct Purchasers: Hemophilia Treatment                          8                    6            6
            Centers
            Direct Purchasers: Ryan White Title I, Ryan                     10                    5            5
            White Title II, and Ryan White Title III
            Contracted Pharmacy Arrangement Purchasers                      20                   19           17

                                                            Total           98                   73           70



                                Sampling Invoice Line Items
                                We requested that the sampled purchasing agents supply invoice
                                information electronically if possible. Of the 70 purchasing agents that
                                submitted usable invoice data, 32 submitted invoices electronically and
                                38 submitted paper invoices. We imported all line items, after we
                                verified accuracy and reliability, for any invoices received electronically.
                                Of the 38 purchasing agents that submitted reasonable paper invoice
                                data, we entered all line items for 31 purchasing agents. For the
                                remaining 7 purchasing agents whose paper invoice submissions were
                                too extensive to reasonably enter manually in our timeframe (e.g., the
                                total number of line items reported exceeded 500), we took a second-
                                stage, simple random sample of the line items. To do this, we
                                determined the number of line items we would sample based on the
                                total number of line items on the invoices. Specifically, if the total
                                number of line items was under 30, we took them all. If the total
                                number of line items was over 30, we calculated the sample size based
                                on the following formula: ((number of line items *60) /(number of line
                                items + 60)). We rounded up to the next integer and took that number
                                in the sample. If the number of line items exceeded 600, we took 60
                                transactions at a minimum.

                                We input the NDC, the price paid, and the quantity purchased for each
                                outpatient drug purchased within the sample month.

                                When possible, we excluded any transactions associated with products
                                that had been returned, as indicated on the invoice, and only included the
                                entity’s net sales. We recognize that the nature of the 340B market


          OEI-05-02-00073       REVIEW   OF   340B PRICES                                                    35
A   P    P E N D              I X ~    B

                                 includes the potential for returns and, since two quarters had passed
                                 between the initial purchase and data request, some electronic invoice
                                 data included these returns.
                                 Projections and Confidence Intervals
                                 For our projection to the population of entities, we did not include the
                                 six purchasing agents that were assigned to an incorrect stratum. Even
                                 though we did not make projections to the stratum level, we excluded
                                 the six purchasing agents that were assigned to the wrong stratum from
                                 the overall population for projections to reduce bias in our estimate.
                                 Table 6 below contains the results: the total projected overpayments
                                 and total amount spent on 340B drugs as well as overpayment rates for
                                 the population of 340B entities during June 2005.


        Table 6. Projected Spending and Overpayments for Population of 340B Entities
        Statistic                                                      Point Estimate   95-Percent Confidence Interval
        Dollars Paid in Excess of the 340B Ceiling Price Using OIG-
        Adjusted 340B Ceiling Prices                                      $3,865,718           $2,024,514 - $5,706,922

        Total Dollars Spent                                             $445,318,538       $182,795,807 - $707,841,269

        Rate of Purchases Above the 340B Ceiling Price                         14.4%                     8.2% - 20.6%

        Rate of Purchases at or Below the 340B Ceiling Price                   85.6%                    79.4% - 91.8%
        Dollars Paid in Excess of the 340B Ceiling Price Using HRSA-
        Calculated 340B Ceiling Prices                                   $12,617,290          $6,656,187 - $18,578,393



                                 To analyze our sample, we accounted for the seven purchasing agents
                                 from which we took a sample of line items. To do this, we projected
                                 overpayment dollars, total spending, and overpayment rates for the
                                 seven purchasing agents. For the remaining 63 purchasing agents, we
                                 did not sample line items and therefore did not need to make
                                 projections. Additionally, we included the six purchasing agents that
                                 were assigned to an incorrect stratum since analysis of our sample was
                                 not weighted by stratum. Table 7, on the next page, contains the results
                                 for overpayment dollars and overpayment rates for the sample.




        OEI-05-02-00073          REVIEW    OF   340B PRICES                                                        36
A   P P    E     N   D I    X    ~   B




     Table 7. Projected Spending and Overpayments for Our Sample of 70 Entities

     Statistic                                                        Point Estimate   95-Percent Confidence Interval

     Dollars Paid in Excess of the 340B Ceiling Price                      $258,556               $253,717 - $263,395

     Total Dollars Spent                                                $32,192,304         $31,323,532 - $33,061,076

     Rate of Purchases Above the 340B Ceiling Price                           14.0%                    13.2% - 14.8%

     Proportion of Dollars Paid in Excess of the 340B Ceiling Price
     Due to Noncompliance With HRSA's Penny Price Policy                       7.2%                      6.9% - 7.4%



                                Office of Inspector General Review of HRSA’s 340B Ceiling Prices
                                To correct for the discrepancies in unit of measure and package size
                                information, we compared drug data for 372 National Drug Codes
                                (NDCs) and adjusted unit and package size data as needed based on
                                research on how each drug is supplied. We primarily relied on
                                manufacturers’ package insert information by drug, which is typically
                                available on the manufacturer’s Web site.

                                To ensure a proper ceiling price calculation for NDCs with unit of
                                measure and/or package size discrepancies, we identified NDCs for
                                which the Centers for Medicare & Medicaid Services unit of measure or
                                package size differed from First DataBank’s unit of measure. Then,
                                using the Internet to research manufacturers’ Web sites and the Food
                                and Drug Administration Web site, we made adjustments to the ceiling
                                price when needed.

                                In total, we identified 372 out of 5,331 unique NDCs in our sample for
                                which the unit of measure or package size descriptions did not
                                correspond and potentially resulted in an incorrect ceiling price. Of
                                those, we made adjustments to 164 of HRSA’s ceiling prices for which
                                the disparities proved problematic.

                                Specifically, for our unit of measure discrepancy analysis, we reviewed
                                182 unique NDCs. Of those, we adjusted the ceiling price for 52. This
                                affected 289 line items and 1,872 purchases in our sample. In our
                                package size discrepancy analysis, we reviewed 190 unique NDCs. Of
                                those, we adjusted the ceiling price for 112. This affected 340 line items
                                and 1,742 purchases in our sample.
                                Pattern Analysis
                                To look at patterns among entities, we divided the entities into three
                                groups: entities with more than 1,500 purchases, between 500 and


      OEI-05-02-00073           REVIEW   OF   340B PRICES                                                         37
A   P   P E N D       I X ~      B

                       1,500 purchases, and fewer than 500 purchases for the month. By
                       “purchase,” we mean the single purchase of each package of product
                       whether the entity purchased multiple quantities of the product at the
                       same time or just a single package. We chose these cutoffs because they
                       fit the scale of the range of sales. We also divided entities by total
                       dollars spent, using $100,000 as the dividing point.

                       For the manufacturer analysis, we grouped manufacturer sales into
                       three groups: high (more than 1,000 sales), medium (between 100 and
                       1,000 sales) and low (below 100 sales). Similar to our definition of
                       “purchase,” a single sale reflects the individual sale of each package of
                       product. The range of manufacturers’ sales was from 1 to 15,885 sales,
                       with an average of 751. We selected these three classifications because
                       they also fit the scale of the range of sales.

                       To conduct our analysis by manufacturers, we first identified and
                       grouped all related subsidiaries, acquired companies, various divisions,
                       or divisions located outside the mainland United States and treated the
                       grouping as a single manufacturer. All of our price comparisons were
                       conducted at the NDC level, of which the first 5 digits represent the
                       “labeler code,” or manufacturer, of the drug. We identified and linked
                       related labeler codes into a “manufacturer” because, much like our
                       identification of the entity purchasing agents, we wanted our unit of
                       pattern analysis to be based on the “network” of businesses that make
                       up the single “manufacturer.” Further, because some of our conclusions
                       reference the manufacturers’ level of interaction with the 340B
                       Program, our groupings treat related companies as having the same
                       level of interaction with the program.

                       Since there is no single source for linking labeler codes of affiliated
                       manufacturers, we identified related manufacturers using a
                       combination of sources. For instance, some manufacturers voluntarily
                       submit a single 340B ceiling price file to HRSA that contains the prices
                       for all affiliated labeler codes. We requested this file from HRSA and
                       were able to link several related manufacturers. Of the 306 total
                       unique labeler codes in our sample, our efforts to group related codes
                       resulted in a universe of 212 “manufacturers.” We also researched
                       company Web sites and drug data Web sites to collect information on
                       related manufacturers.

                       For the pattern analysis of wholesalers, we grouped wholesalers into
                       two groups: primary and secondary wholesalers. As previously
                       mentioned, secondary wholesalers are associated with lower-volume

    OEI-05-02-00073    REVIEW   OF   340B PRICES                                             38
A   P     P E N D         I X ~      B

                            business than primary wholesalers, who account for 90 percent of drug
                            distribution. We identified which wholesalers were associated with
                            each entity’s sales using entity survey responses and submitted
                            invoices.

                            We identified a total of 16 wholesalers in our sample. The “primary
                            wholesalers” category is composed of the Big 3, as they are known in the
                            industry; namely, Amerisource Bergen, Cardinal, and McKesson.
                            Included in our category of secondary wholesalers are 13 regional
                            wholesalers, repackagers, and pharmacy benefit managers. We
                            excluded contract pharmacies from our analysis of wholesalers because
                            we could not tell which wholesaler they purchased through. We also
                            excluded any manufacturer-direct sales, as no wholesaler was used.

                            Finally, we classified NDCs into three groups: high (more than 1,000
                            sales), medium (between 100 and 1,000 sales) and low (below 100 sales).
                            We wanted to keep the NDC and the manufacturer grouping similar, so
                            that both high-volume groupings had about 10 times the purchases and
                            or sales totals as the low-volume group.




        OEI-05-02-00073     REVIEW   OF   340B PRICES                                           39
Δ    A P P E N D I X ~ C                          




                      INCONSISTENCIES IN PACKAGE SIZE DATA USED TO
                      CALCULATE 340B PRICES
                      OIG uncovered three issues that resulted in discrepancies in package
                      size information between CMS and FDB, and ultimately led to
                      inaccurate 340B ceiling prices.
                      Discrete package size. First, discrepancies in package sizes may occur
                      when package size data related to discrete (inner) packages and outer
                      package size are not consistently reported. Complete package size
                      consists of two parts, the inner package size and the outer package size.
                      The outer package size reflects the number of discrete (inner) packages
                      that must be sold together. We discovered instances in which FDB
                      captured the complete package size (inner x outer package size), while
                      CMS listed the package size in relation to the inner package size only.
                      It appears that the case had been “broken” and 340B entities were
                      buying bottles individually and not in the designated case pack as
                      reported to FDB. For example, FDB captures the full case pack
                      information for a particular drug as 12 bottles of 100 tablets. However,
                      CMS lists the package size for this drug as 100 (e.g., 1 bottle of 100
                      tablets). Using FDB package size information to calculate the 340B
                      ceiling price resulted in a price that was 12 times too high.
                      Metric conversion. Both the NCPDP standards used by FDB and the
                      CMS guidelines for the Medicaid drug rebate program require that
                      drugs be billed in metric units. However, drugs are not always sold in
                      metric units, and therefore must be converted for billing purposes. For
                      example, cough syrup is typically sold in 12 fluid ounce bottles, but an
                      ounce is not an accepted unit of measure and must, in this case, be
                      converted to milliliters for billing purposes. In making metric
                      conversions of this nature, manufacturers have the discretion to report
                      either the actual metric quantity, in this case 355 milliliters, or use
                      NCPDP metric conversion standards, which are based on traditional
                      pharmacy standards, resulting in 360 milliliters. This discretion allows
                      for the possibility that manufacturers will report different metric
                      amounts to CMS and FDB, creating a discrepancy in package size.
                      Rounding. Finally, package sizes can differ between CMS and FDB due
                      to differences related to rounding. CMS does not use decimal places in
                      its package size field, but FDB occasionally does use decimal package
                      sizes. Thus, when CMS rounds decimals to a whole number, there is a
                      potential for discrepancy between CMS and FDB package sizes.


    OEI-05-02-00073   REVIEW   OF   340B PRICES                                            40
Δ      A P P E N D I X                        ~   D   




                  AGENCY COMMENTS 





OEI-05-02-00073   REVIEW   OF   340B PRICES               41 

A   P   P E N D       I X           ~     D       





    OEI-05-02-00073   REVIEW   OF   340B PRICES       42 

A   P   P E N D       I X           ~     D       





    OEI-05-02-00073   REVIEW   OF   340B PRICES       43 

A   P   P E N D       I X           ~     D       





    OEI-05-02-00073   REVIEW   OF   340B PRICES       44 

Δ         A C K N O W L E D G M E N T S                        



                  This report was prepared under the direction of Ann Maxwell, Regional
                  Inspector General for Evaluation and Inspections in the Chicago
                  regional office, and Tom Komaniecki, Deputy Regional Inspector
                  General. Other principal Office of Evaluation and Inspections staff who
                  contributed include:

                  Madeline Francescatti, Project Leader
                  Suzanne Bailey, Program Analyst

                  Janet Kilian, Intern
                  Ayana Everett, Program Specialist

                  Kevin Farber, Mathematical Statistician




OEI-05-02-00073   REVIEW   OF   340B PRICES                                          45
